      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




July 7, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Northcott Neighborhood House’s Compliance With Health and Safety
               Regulations for Head Start Programs (A-05-09-00079)


Attached, for your information, is an advance copy of our final report on Northcott
Neighborhood House’s (the Grantee) compliance with health and safety regulations for Head
Start programs. We will issue this report to the Grantee within 5 business days. The
Administration for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
James C. Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at James.Cox@oig.hhs.gov. Please refer to report number A-05-09-00079.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

July 12, 2010

Report Number: A-05-09-00079

Ms. M. Francis Martin
Director
Northcott Neighborhood House
2460 North Sixth Street
Milwaukee, WI 53212

Dear Ms. Martin:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Northcott Neighborhood House’s Compliance
With Health and Safety Regulations for Head Start Programs. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Mike Barton, Audit Manager, at (614) 469-2543 or through email at Mike.Barton@oig.hhs.gov.
Please refer to report number A-05-09-00079 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. M. Francis Martin


Direct Reply to HHS Action Official:

Mr. Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Department of Health & Human Services
233 North Michigan Avenue, Suite 400
Chicago, IL 60601-5519
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF NORTHCOTT
  NEIGHBORHOOD HOUSE’S
COMPLIANCE WITH HEALTH AND
  SAFETY REGULATIONS FOR
   HEAD START PROGRAMS




                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-05-09-00079
                       Office of Inspector General
                                         http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud
and misconduct related to HHS programs, operations, and beneficiaries. With investigators working in
all 50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The
investigative efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil
monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                          Notices


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires
that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as
questionable, a recommendation for the disallowance of costs
incurred or claimed, and any other conclusions and
recommendations in this report represent the findings and
opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Northcott Neighborhood House (the Grantee), a Head Start delegate agency, provides early
learning services to children aged 3 to 5 years and their families through a comprehensive
educational program at three facilities in Milwaukee, Wisconsin. For the grant year
November 1, 2008, through October 31, 2009, OHS awarded approximately $1.6 million in
Federal Head Start funds to the Grantee to provide services to 318 children. On May 7, 2009,
the Grantee requested $29,184 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of May 2009:

   •   The Grantee could not provide any evidence that its two contracted busdrivers had
       received driving record checks, preemployment medical examinations, or required
       training.

   •   The Grantee’s three childcare facilities did not meet all Federal Head Start and State
       regulations on protecting children from unsafe materials and equipment and providing a
       secure environment for children.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. The Grantee’s failure to comply with these regulations
jeopardized the health and safety of children in its care.




                                                i
RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   if it resumes transportation services, all Federal requirements related to busdriver
       qualifications and training are met and documented and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       all necessary repairs are addressed in a timely manner, and all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee agreed with our recommendations and
stated that all material and equipment safety and facility security findings identified during our
visits had been corrected. However, the Grantee disagreed that children were using the Sixth
Street gymnasium during our visit because repairs were underway and drywall was being
temporarily stored in the gymnasium. The Grantee also disagreed that two fire extinguishers at
the same facility had expired tags.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

During our visit to the Sixth Street facility, we observed children playing in the gymnasium with
broken drywall and debris on the floor. Although the majority of fire extinguishers at the facility
were inspected shortly before our visit, two fire extinguishers in an exit hallway near the
gymnasium had expired tags.




                                                 ii
                                                    TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1
       Federal Head Start Program ..................................................................................1
       Federal and State Regulations for Head Start Grantees ........................................1
       Northcott Neighborhood House ............................................................................1
       Office of Inspector General Audits .......................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
       Objective ...............................................................................................................2
       Scope .....................................................................................................................2
       Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .................................................................3

     HEAD START BUSDRIVER QUALIFICATIONS AND TRAINING ....................3
       Federal Regulations ..............................................................................................3
       Grantee’s Compliance With Federal Regulations.................................................4

     MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY.............4
       Federal and State Regulations...............................................................................4
       Grantee’s Compliance With Federal and State Regulations .................................5

     RECOMMENDATIONS ............................................................................................6

     GRANTEE COMMENTS ..........................................................................................6

     OFFICE OF INSPECTOR GENERAL RESPONSE .................................................6

APPENDIXES

     A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
        AND FACILITY SECURITY REGULATIONS

     B: GRANTEE COMMENTS




                                                                      iii
                                            INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

In Wisconsin, childcare facilities must comply with Wisconsin Administrative Code DCF 251—
Licensing Rules for Group Child Care Centers unless an exception to a particular requirement is
granted (DCF 251.02).

Northcott Neighborhood House

Northcott Neighborhood House (the Grantee), a Head Start delegate agency, 1 provides early
learning services to children aged 3 to 5 years and their families through a comprehensive
educational program that focuses on activities such as pre-math education, music, dramatic play,


1
 The Social Development Commission (SDC), a Head Start grantee, delegated part of the responsibility for
operating the Head Start program to Northcott Neighborhood House.



                                                       1
fine and gross motor skills, multicultural activities, preliteracy education, creative art,
socialization, field trips, mental health, and nutrition. The Grantee serves children and families
in Milwaukee, Wisconsin, at three State-licensed locations: Sixth Street, Lisbon Avenue, and
Fond du Lac Avenue.

For the grant year November 1, 2008, through October 31, 2009, OHS awarded approximately
$1.6 million in Federal Head Start funds to the Grantee to provide services to 318 children. On
May 7, 2009, the Grantee requested $29,184 in Recovery Act funding. 2

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of May 2009. To gain an
understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from May 18 through May 20, 2009, at the Grantee’s
administrative office and its three childcare facilities in Milwaukee, Wisconsin.

Methodology

To accomplish our objective, we:

    •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

    •   reviewed Federal and State laws, regulations, and policies related to Federal grant awards
        and the Head Start program;

    •   reviewed the Grantee’s Head Start grant application and current grant award documents;

2
 On July 10, 2009, SDC received more than $1.4 million in Recovery Act funding. Because of Northcott’s delegate
agency relationship with SDC, we could not determine when Northcott received its portion of the funds.




                                                      2
       •   reviewed the Grantee’s files on all 41 current Head Start employees; 3

       •   reviewed the Grantee’s licenses and documentation of fire inspections;

       •   visited the Grantee’s three childcare facilities; and

       •   discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of May 2009:

       •   The Grantee could not provide any evidence that its two contracted busdrivers had
           received driving record checks, preemployment medical examinations, or required
           training.

       •   The Grantee’s three childcare facilities did not meet all Federal Head Start and State
           regulations on protecting children from unsafe materials and equipment and providing a
           secure environment for children.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. The Grantee’s failure to comply with these regulations
jeopardized the health and safety of children in its care.

HEAD START BUSDRIVER QUALIFICATIONS AND TRAINING

Federal Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1310.16(b)), a grantee’s applicant review
procedure for busdrivers must include, at a minimum, (1) a review of general grantee staff
qualifications with additional disclosure by the applicant of all moving traffic violations,
regardless of penalty; 4 (2) a check of the applicant’s driving record through the appropriate State
agency, including a check of the applicant’s record through the National Driver Register, if

3
    The 41 current employees were partially or fully funded by the Head Start grant award.

4
    The general qualifications for a grantee’s staff are specified in 45 CFR § 1304.52(b).



                                                            3
available in the State; and (3) a medical examination by a licensed doctor of medicine or
osteopathy, after a conditional offer of employment and before the applicant begins work,
establishing that the individual is physically able to perform job-related functions with any
necessary accommodations. The regulations (45 CFR § 1310.17(b)) also require that each
grantee providing transportation services ensure that busdrivers receive a combination of
classroom instruction and behind-the-wheel instruction before transporting children.

In addition, 45 CFR § 1310.10(c) states that each grantee that provides transportation services is
responsible for complying with the applicable requirements of 45 CFR § 1310. When a grantee
provides transportation through another organization or an individual, the grantee must ensure
that the transportation provider complies with these requirements.

Grantee’s Compliance With Federal Regulations

The Grantee contracted for two busdrivers to provide Head Start transportation services.
Because the busdrivers were employees of the contractor, the Grantee did not maintain any
documentation on them. The Grantee’s files contained no evidence that a driving record check
was conducted during the applicant review process, that a medical examination was conducted
before employment, or that classroom and behind-the-wheel instruction was provided before the
two drivers were allowed to transport children. We discussed these deficiencies with Grantee
officials, and they informed us that they terminated the transportation services shortly after our
visit.

These deficiencies occurred because Grantee policies did not require monitoring the
transportation provider to ensure that it complied with Federal and State regulations. By not
ensuring that Head Start busdrivers had adequate qualifications and met mandatory training
requirements before transporting children, the Grantee potentially jeopardized the health and
safety of children in its care.

MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, safety, and security of all Head Start facilities, materials, and equipment.
The regulations (45 CFR § 1304.53(a)(10)) state that as part of the safety inspections that are
required to be conducted at least annually, grantees must ensure that approved, working fire
extinguishers are readily available. Also, 45 CFR § 1304.53(a)(9) states that the Head Start
physical environment and outdoor play areas at center-based programs must be arranged so as to
prevent any child from leaving the premises and entering unsafe and unsupervised areas.
Further, 45 CFR § 1304.53(a)(10)(vii) requires that grantees ensure that exits are clearly visible
so that the path to safety outside is unmistakable.

Pursuant to 45 CFR § 1306.30(c), grantees must ensure that Head Start facilities comply with
any State and local licensing requirements. If these licensing standards are less comprehensive
or less stringent than Head Start regulations or if no State or local licensing standards are


                                                 4
applicable, grantees must ensure that their facilities comply with the Head Start Program
Performance Standards related to health and safety.

In Wisconsin, childcare facilities must comply with Wisconsin Administrative Code DCF 251—
Licensing Rules for Group Child Care Centers. DCF 251.06(2)(d) states that materials harmful
to children, including power tools, flammable or combustible materials, insecticides, matches,
drugs, and other articles hazardous or poisonous to children must be stored in properly marked
containers in areas inaccessible to children. DCF 251.06(4)(d) states that exits and exit
passageways must have a minimum clearance of 3 feet and be unobstructed by furniture or other
objects.

Grantee’s Compliance With Federal and State Regulations

The Grantee’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe materials and equipment and ensuring facility
security. We noted deficiencies at all three facilities and reported the deficiencies to Grantee
officials. The officials agreed to address these issues in a timely manner.

Sixth Street (visited May 19, 2009)

   •   A classroom drawer had a sharp metal edge within reach of children (Appendix A,
       Photograph 1).

   •   The door to the faculty lounge was unlocked, allowing children access to a gas stove
       (Appendix A, Photograph 2).

   •   A gymnasium where children routinely played had large pieces of broken drywall and
       debris on the floor (Appendix A, Photograph 3).

   •   Two fire extinguishers in an exit hallway had expired tags (last serviced in September
       1991).

   •   An exit passageway off the gymnasium contained a shopping cart, cleaning mops, a snow
       shovel, and other objects that obstructed the exit (Appendix A, Photographs 4 and 5).

Lisbon Avenue (visited May 20, 2009)

   •   An unlocked stairwell contained paint and cleaning supplies within reach of children
       (Appendix A, Photograph 6).

   •   The door leading to the hallway and exterior door lacked an exit sign.




                                                5
Fond du Lac Avenue (visited May 20, 2009)

   •   An approximately 6-inch-wide gap in the playground fence could have permitted a child
       to leave the premises and enter an unsupervised alley and roadway (Appendix A,
       Photograph 7).

These deficiencies occurred because the Grantee did not consistently follow procedures that were
in place to ensure that it complied with Federal and State health and safety regulations. By not
ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the safety of children in its care.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   if it resumes transportation services, all Federal requirements related to busdriver
       qualifications and training are met and documented and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       all necessary repairs are addressed in a timely manner, and all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee agreed with our recommendations and
stated that all material and equipment safety and facility security findings identified during our
visits had been corrected. However, the Grantee disagreed that children were using the Sixth
Street gymnasium during our visit because repairs were underway and drywall was being
temporarily stored in the gymnasium. The grantee also disagreed that two fire extinguishers at
the same facility had expired tags.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

During our visit to the Sixth Street facility, we observed children playing in the gymnasium with
broken drywall and debris on the floor. Although the majority of fire extinguishers at the facility
were inspected shortly before our visit, two fire extinguishers in an exit hallway near the
gymnasium had expired tags.




                                                 6
APPENDIXES
                                                                               Page 1 of 4

APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
            SAFETY AND FACILITY SECURITY REGULATIONS




Photograph 1 – Taken at Sixth Street on 5/19/09 showing the sharp metal edge of a
classroom drawer.




Photograph 2 – Taken at Sixth Street on 5/19/09 showing the unlocked faculty lounge with
a gas stove.
                                                                                Page 2 of 4




Photograph 3 – Taken at Sixth Street on 5/19/09 showing broken drywall and debris on the
floor of a gymnasium where children routinely played.




Photograph 4 – Taken at Sixth Street on 5/19/09 showing objects obstructing an exit
passageway.
                                                                             Page 3 of 4




Photograph 5 – Taken at Sixth Street on 5/19/09 showing the same obstructed passageway
as in Photograph 4 and the exit (the door with the red sign).




             Photograph 6 – Taken at Lisbon Avenue on 5/20/09 showing
             paint and cleaning supplies in an unlocked stairwell.
                                                                          Page 4 of 4




Photograph 7 – Taken at Fond du Lac Avenue on 5/20/09 showing an approximately
6-inch-wide gap in the playground fence.
                                                                                               Page 1 of 9


                            APPENDIX B: GRANTEE COMMENTS




April 28, 2010

REPORT NUMBER: A-05-09-00079

Mr. James C. Cox
Regional Inspector General for Audit Services
233 North Michigan Avenue
Suite 1360
Chicago, Illinois 60601

Dear Mr. Cox:

I am writing this letter in response to the draft report received on April 26, 2010 regarding the health
and safety audit visit conducted on May 19 and 20, 2009.

Grantee’s Compliance with Federal and State Regulations

Regarding the transportation findings, if in the future the agency is able to provide transportation, we
will ensure that contracted vendors comply with the transportation regulations as outlined in 45CFR
1310. As of the 2009-2010 school year transportation is not provided.

All material and equipment safety and facility security findings identified during the visit were corrected:

Sixth Street (visited May 19, 2009)

        A new file cabinet was purchased for the classroom (Appendix, Photograph 1)
        (See corrected Photograph 1)

        The door to the small kitchen is locked at all times when not in use for meetings or other
        agency activities so that children do not have access to the gas stove. (Appendix, Photograph 2)
        (See corrected Photograph 2)

        The large piece of broken drywall and debris on the floor of the gym were removed.
        (Appendix, Photograph 3) (See corrected Photograph 3)
                                                                                                Page 2 of 9



        RESPONSE: Children were not using the gym during the week of the visit as there were some
        maintenance repairs being done and the dry wall was stored in the gym on a temporary basis
        until the bathroom repairs were done.

        Two fire extinguishers in an exit hallway had expired tags (last serviced in September 1991)

        RESPONSE: Fire extinguishers at all three sites are serviced annually. The last service date for
        6th Street site before the visit was March 4, 2009 which is documented in our files.
        (See attached invoice Accurate Recharge & Fire Suppression)

        All items that obstructed the exit and an exit passageway off the gym were removed.
        (Appendix, Photographs 4 and 5) (See corrected Photographs 4 and 5)


Lisbon Avenue Center (visited May 20, 2009)

        All paint and cleaning supplies were removed and the door to the stairwell is locked daily.
        (Appendix Photograph 6) (See corrected Photograph 6)

        Exit signs were posted on the door leading to the hallway and exterior door.

Fond du Lac Center (visited May 20, 2009)

        The gap in the playground fence has been enclosed. (Appendix Photograph 7)
        (See corrected Photograph 7)


It is the goal of all employees to ensure that the children in our care are safe and our sites are free from
any hazardous conditions or equipment.

Please note that all issues (except for the fence, because new fencing had to be purchased to close the
gap permanently) were resolved within 24 hours of notification to the Director and was reported to the
monitors at the exit meeting on May 20, 2009.

Other actions that were taken based on your recommendations:

        Director met with site managers to reinforce the importance of diligently monitoring
        the facilities to ensure that none of the issues cited will ever occur again.

        Agency on-going monitoring procedures have been reviewed and changes will be
        made for next year to ensure that the health and safety checklists are done monthly
        and reviewed by the Director.

        Agency managers will ensure that all unrestricted areas are secured and are not
        accessible to the children.
                                                                                            Page 3 of 9

Northcott Neighborhood House has sponsored the Head Start program since its inception in 1965
working under the auspices of the grantee, Social Development Commission. We have always prided
ourselves with providing the best possible services to the children and families. We have and will
continue to put forth every effort to be in compliance with the Federal regulations governing Head Start
to ensure the safety of the children in our care.



Sincerely,



M. Frances Martin
Head Start Director

Enclosures
                                                           Page 4 of 9




                       APPENDIX

          Sixth Street—Corrected Photographs




    4/28/10 Corrected Photograph 1-- New File Cabinet




4/28/10 Corrected Photograph 2—Small kitchen door locked
                                                            Page 5 of 9




4/28/10 Corrected Photograph 3—Drywall and debris removed
                                                                  Page 6 of 9




Attachment—Accurate Recharge & Fire Suppression Service Invoice




    4/28/10 Corrected Photograph 4 exit passageway off gym
                                            Page 7 of 9




4/28/10 Corrected Photograph 5 passageway



              Lisbon Center
                                                                          Page 8 of 9



4/28/10 Corrected Photograph 6—paint cans and cleaning supplies removed




            4/28/10 Corrected Photograph –exit signs posted


                          Fond Du Lac Center
                                               Page 9 of 9




Corrected photograph 7-gap in fence enclosed
